BECKER GALLAGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in SCOTT
SCHWAB, in his official capacity as Secretary of State
for the State of Kansas v. STEVEN WAYNE FISH, ET AL.,
were sent via Three Day Service to the U.S. Supreme
Court, and 3 copies were sent via Three Day Service
and e-mail to the following parties listed below, this
28th day of July, 2020:
Dale Ho
R. Orion Danjuma
Sophia Lin Lakin
American Civil Liberties Union Foundation
125 Broad Street, 18th Floor
New York, NY 10004
(212) 549-2563
dale.ho@aclu.or g
odanjuma@aclu .org
slakin@aclu.org
Lauren Bonds
ACLU Foundation of Kansas
6701 West 64th Street, Suite 210
Overland Park, KS 66202
(913) 490-4100
lbonds@aclukan sas.org
Neil A. Steiner
Rebecca Kahan Waldman
Dechert LLP
Three Bryant Park
1095 Avenue of the Americas
New York, NY 10036-6797
(212) 698-3500
neil.steiner@de chert.com
re becca.waldman@ dechert.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Angela M. Liu
Dechert LLP
35 West Wacker Drive, Suite 3400
Chicago, IL 60601
(312) 646-5800
angela.li u@dechert.com
Counsel for Respondents
Steven Wayne Fish, Donna Bucci, Charles Stricker,
Thomas Boynton, Douglas Hutchinson, and League of
Women Voters of Kansas
Mark P. Johnson
Curtis E. Woods
Samantha Wenger
Dentons US LLP
4520 Main Street, Suite 1100
Kansas City, MO 64111
mark.johnson@dentons. com
curtis. woods@dentons.com
samantha.wenger@dent ons.com
Mark T. Emert
Fagan, Emert, Davis
730 New Hampshire, Suite 210
Lawrence, KS 66044
memert@fed-firm.com
Counsel for Respondent
Parker Bednasek

DEREK SCHMIDT

Attorney General of Kansas
JEFFREY A. CHANAY
Chief Deputy Attorney General
TOBY CROUSE

Solicitor General (Counsel of Record)
BRANT M. LAUE
Deputy Solicitor General
DWIGHT R. CARSWELL
KURTIS K. WIARD

Assistant Solicitors General
120 S.W. 10th Ave., 2d Floor
Topeka, Kansas 66612
(785) 296-2215
toby.crouse@ag.ks.gov
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 28, 2020.

Becker Gallagner Legal Pub ·shing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

l

\

'---J

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

